                                                                      OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0a
                 Reporting Entity: Small Business Administration - OIG
               Month Ending Date: 12/31/2009

                                                                        Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau              Recovery Act TAFS          Award Type        US Indicator       Total Obligations       Total Gross           Direct or         Ordering TAFS
No.                                                                                                                                 Outlays           Reimbursable
    Small Business Administration - (73-0201 2009 \ 2013)               Other             Y - US             $313,067              $313,067
    OIG                             Small Business
                                    Adminstration - OIG -
  1                                 Recovery Act                                                                                                    Direct
    Small Business Administration - (73-0201 2009 \ 2013)           Contracts and         Y - US             $526,433             $386,566
    OIG                             Small Business                 Orders (including
                                    Adminstration - OIG -           modifications)
  2                                 Recovery Act                                                                                                    Direct
 3
 4
 5
 6
 7
 8
 9
10

                                                       Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau            FY 2009 Non-Recovery        Total FY 2009      Total FY 2009   FY 2010 Non-Recovery      Total FY 2010        Total FY 2010
No.                                           Act TAFS               Obligations       Gross Outlays         Act TAFS             Obligations         Gross Outlays
      Small Business Administration -   (73-0200 2009) Small               $330,300          $330,300 (73-0200 2010) Small             $157,001              $157,001
      OIG                               Business Adminstration -                                      Business Adminstration -
  1                                     OIG                                                           OIG
  2
  3
  4
  5
  6
  7
  8
 9
10



                                                                                                                                                 SBA OIG Monthly Report 12-31-09.xlsx
                                                                                          OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 2 of 4) Version 4.0a
         Reporting OIG: Small Business Administration - OIG
     Month Ending Date: 12/31/2009

                                  FTE Working on Recovery
                                                                                                                                                                   Testimonies:
        Fiscal Year                  2009              2010                          Cumulative
         Newly Hired FTE
                                      0.94                      1.25                      2.19                                                             Provided (monthly):        0
             (cumulative):

FTE Funded by Recovery
                                      1.35                      1.56                      2.91                                                           Provided (cumulative):       0
 Act Funds (cumulative):

      FTE Not Funded by
      Recovery Act Funds              3.00                      1.33                      4.33
           (cumulative):

                                                                                                                                                       Audits / Inspections / Evaluations /
                Complaints                          Whistleblower Reprisal Allegations                              Investigations                                                                  Training / Outreach
                                                                                                                                                                     Reviews
               Monthly Data                                      Monthly Data                                       Monthly Data                                  Monthly Data                         Monthly Data

                                                                                                                                                                                                    Training Sessions
                  Received:           17                               Received:           0               Opened (this month):               0          Initiated (this month):      1                                       0
                                                                                                                                                                                                           Provided:

                                                                                                         Active (as of the end of                      In Process (as of the end
                                                                       Accepted:           0                                                  0                                       6          Individuals Trained:         0
                                                                                                                     the month):                                 of the month):
                                                                                                                                                               Completed Final
                                                                                                                                                                                                    Hours of Training
                                                                                                                Pending Decision:             0                 Published Work        8                                       0
                                                                                                                                                                                                           Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                Priority Interim
                                                                                                                                                                                                   Outreach Sessions
                                                                                                         Closed without Action:               0                 Published Work        0                                       0
                                                                                                                                                                                                         Conducted:
                                                                                                                                                                       Products:
                                                                                                                   Accepted for                              Unpublished Work
                                                                                                                                              0                                       0
                                                                                                                   Prosecution:                                      Products*:
                                                                                                            Prosecution Denied:               0
                                                                                                        Referred for Alternative
                                                                                                                                              0
                                                                                                                     Resolution:

  Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final
                                                                                                                                                                                                    Training Sessions
                  Received:           22                               Received:           0             Closed without Action:               1               Published Work      12                                          0
                                                                                                                                                                                                           Provided:
                                                                                                                                                                    Products:
                                                                                                                                                              Priority Interim
                                                                                                                      Accepted for
                                                                       Accepted:           0                                                  0               Published Work       0             Individuals Trained:         0
                                                                                                                      Prosecution:
                                                                                                                                                                    Products:
                                                                                                                                                           Unpublished Work                         Hours of Training
                                                                                                            Prosecution Denied:               0                                    0                                          0
                                                                                                                                                                   Products*:                              Provided:
                                                                                                        Referred for Alternative                                                                   Outreach Sessions
                                                                                                                                              0              Cumulative Total:       12                                       3
                                                                                                                     Resolution:                                                                         Conducted:

                                                                                                               Cumulative Total:              1

*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                               SBA OIG Monthly Report 12-31-09.xlsx
                                        OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Small Business Administration - OIG
  Month Ending Date: 12/31/2009

        No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                      Issued 8 Recovery Act related reports: Recovery Oversight Memorandum (ROM) 10-10 - SBA's Administration of the
                      Microloan Program under the Recovery Act, 12/28/09; ROM 10-09 - Lack of Approval for a Recovery Act Surety Bid Bond
                      Guarantee, 12/15/09; ROM 10-08 - Lack of Controls to Ensure Recovery Act Payroll is Complete and Accurate, 12/15/09;
                      ROM 10-07 - Enhancements Needed in Processing Payroll Funded Under the Recovery Act, 12/15/09; ROM 10-06 -
         1            Inadequate Documentation to Support a Loan Approved Under Section 504 of the Recovery Act, 12/15/09; ROM 10-05 -
                      Notice of Finding and Recommendation on Recovery Act Loans Disbursed Without the Required Borrower Immigration
                      Certifications, 12/10/09; ROM 10-04 - Review of Controls Over Job Creation and Retention Statistics Reported by SBA
                      under the American Recovery and Reinvestment Act of 2009, 12/4/09; ROM 10-03 – Notice of Finding and
                      Recommendation on Recovery Act Loans Involving Change of Ownership Transactions, 12/2/09.
                      Awarded a contract for loan examination services to (1) determine whether SBA-guaranteed loans under the Recovery
         2            Act were originated and closed in compliance with SBA's policies and procedures and (2) identify any evidence of
                      suspicious activity.
         3            Initiated a Review of Early Problem/Defaulted 7(a) Recovery Act Loans.
                      Ongoing reviews as of the end of the month include: (1) Review of SBA’s Job Creation Data under the Recovery Act; (2)
                      Audit of 7(a) Loans Disbursed Pursuant to the Recovery Act; (3) Review of Program Statistics Reported by SBA under the
                      Recovery Act; (4) Audit of SBA’s Planning and Award of the Customer Relationship Management Contract Awarded
         4
                      Under the Recovery Act; (5) Audit of SBA’s Planning and Award of the Wide Area Network Bandwidth Expansion Contract
                      Awarded Under the Recovery Act; and (6) Review of Early Problem/Defaulted 7(a) Recovery Act Loans.

         5
         6
         7
         8
         9
        10

        No.                           OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
         1            See FY 2010 Recovery Act Work Plan available at www.sba.gov/ig/recovery.
         2
         3
         4
         5
         6
         7

                                                                                                               SBA OIG Monthly Report 12-31-09.xlsx
                                                                      OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Small Business Administration -
   Month Ending
                 12/31/2009
           Date:

                                                                                    TRAINING ACTIVITIES
                                                                                                                                            Hours of
                                                                                      Training                   Length of                  Training                 Presentation    Average
                                                    Target                                            Date of                 Number of                   Cost of
      No.               Type of Training                        Title of Training   Location (City,               Training                 Provided                   with Other    Evaluation
                                                   Audience                                           Training               Participants                 Training
                                                                                       State)                     (hours)                   (length x                    OIGs         Rating
                                                                                                                                          participants)
       1                                                                                                                                              0
       2                                                                                                                                              0
       3                                                                                                                                              0
       4                                                                                                                                              0
       5                                                                                                                                              0
       6                                                                                                                                              0
       7                                                                                                                                              0
       8                                                                                                                                              0
       9                                                                                                                                              0
      10                                                                                                                                              0
      11                                                                                                                                              0
      12                                                                                                                                              0
      13                                                                                                                                              0
      14                                                                                                                                              0
      15                                                                                                                                              0
                                                                                                                  TOTAL                 0             0

                                               OUTREACH ACTIVITIES
                                                  Number of
                                                Organizations                         Outreach
                     Organization to which                      Description of                         Date of
      No.                                       Represented                         Location (City,
                      Outreach Provided                           Outreach                            Outreach
                                                 at Outreach                           State)
                                                   Session
       1
       2
       3
       4
       5
       6
       7
       8
       9
      10
      11
      12
      13
      14
      15




                                                                                                                                                              SBA OIG Monthly Report 12-31-09.xlsx
